FEDERAL PRISON INDUSTRIES, INC.

 ANNUAL FINANCIAL STATEMENTS

      FISCAL YEAR 2012

         U.S. Department of Justice

       Office of the Inspector General

                Audit Division


            Audit Report 13-03

             December 2012

           FEDERAL PRISON INDUSTRIES, INC.

            ANNUAL FINANCIAL STATEMENTS

                  FISCAL YEAR 2012


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


      This audit report contains the Annual Financial Statements of the
Federal Prison Industries, Inc. (FPI) for the fiscal years (FY) ended
September 30, 2012, and September 30, 2011. In accordance with the
Government Corporation Control Act, as amended (31 U.S.C. §9105), and
under the direction of the Office of the Inspector General (OIG), Cotton &
Company LLP performed the FPI’s audit in accordance with auditing
standards generally accepted in the United States of America. The audit
resulted in an unqualified opinion on the FY 2012 financial statements. An
unqualified opinion means that the financial statements present fairly, in all
material respects, the financial position and the results of the entity’s
operations in conformity with U.S. generally accepted accounting principles.
For FY 2011, the FPI also received an unqualified opinion on its financial
statements (OIG Report No. 12-06).

      Cotton & Company LLP also issued reports on internal control over
financial reporting and on compliance and other matters. For FY 2012, the
auditors did not identify any significant deficiencies in the Independent
Auditors’ Report on Internal Control over Financial Reporting.

      No instances of non-compliance or other matters that are required to
be reported under Government Auditing Standards were identified during the
audit in the FY 2012 Independent Auditors’ Report on Compliance and Other
Matters. Additionally, Cotton & Company LLP’s tests disclosed no instances
in which the FPI’s financial management systems did not substantially
comply with the Federal Financial Management Improvement Act of 1996.

       The OIG reviewed Cotton & Company LLP’s reports and related
documentation and made necessary inquiries of its representatives. Our
review, as differentiated from an audit in accordance with Government
Auditing Standards, was not intended to enable us to express, and we do not
express, an opinion on the FPI’s financial statements, conclusions about the
effectiveness of internal control, conclusions on whether the FPI’s financial
management systems substantially complied with the Federal Financial
Management Improvement Act of 1996, or conclusions on compliance with
laws and regulations. Cotton & Company LLP is responsible for the attached
auditors’ reports dated November 5, 2012, and the conclusions expressed in



                                      -i-
the reports. However, our review disclosed no instances where Cotton &
Company LLP did not comply, in all material respects, with auditing
standards generally accepted in the United States of America.




                                   -ii-
                 FEDERAL PRISON INDUSTRIES, INC.

                  ANNUAL FINANCIAL STATEMENTS

                        FISCAL YEAR 2012


                              TABLE OF CONTENTS


                                                                                        PAGE

MESSAGE FROM THE CHIEF EXECUTIVE OFFICER AND THE
  CHIEF OPERATING OFFICER ...............................................................1


MANAGEMENT'S DISCUSSION AND ANALYSIS..........................................5


INDEPENDENT AUDITORS’ REPORTS


  REPORT ON FINANCIAL STATEMENTS ................................................ 15


  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING............ 17


  REPORT ON COMPLIANCE AND OTHER MATTERS ................................ 19


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


  BALANCE SHEETS ........................................................................... 23


  STATEMENTS OF OPERATIONS AND CUMULATIVE RESULTS OF

    OPERATIONS ............................................................................. 24


  STATEMENTS OF CASH FLOWS ......................................................... 25


  NOTES TO FINANCIAL STATEMENTS.................................................. 26

This page intentionally left blank.
	
We are pleased to present the Fiscal Year 2012 Annual Management
Report to the Congress of the United states. This report
includes the Federal Prison Industries, Inc.'s (FPI's) financial
statements, Management's Discussion and Analysis, Office of the
Inspector General Commentary and Summary, and the independent
auditors' reports on the corporation's financial statements,
internal controls, compliance and other matters.  FPI received an
unqualified audit opinion on its financial statements and they
were free of material weaknesses.

FPI was established by statute and Executive Order in 1934, to
provide opportunities for educational and work-related
experiences to federal inmates .. FPI's mission is to protect
society and reduce crime by preparing inmates for successful
reentry through job training.

FPI is the Bureau of Prisons' (BOP's) most important reentry
program, currently providing valuable job skills training and
work experience to approximately 13,000 federal inmates. FPI
directly supports the BOP's correctional mission by keeping
inmates productively occupied and by enhancing the likelihood of
their successful reentry into society.  Inmates who participate
in the FPI program are less likely to engage in disruptive
behavior, a benefit which contributes significantly to the safe
and secure management of prisons, thereby reducing operating
costs. Additionally, inmates participating in the FPI program are
24% less likely to return to a life of crime, resulting in
reduced future enforcement and incarceration costs.

FPI is a program with proven lasting benefits, including a
reduction in government spending on crime prevention and
prosecutions; a positive impact on the U.S. economy through
purchases of raw materials from private-sector suppliers
throughout the country; and the staff salaries spent in the
communities with a FPI presence. This is achieved, without an
additional burden to the taxpayer.

As a self-sustaining federal government corporation, FPI utilizes
the funds generated by the sales of goods and services to fund
this significant re-entry program. However, the FPI program has
been greatly impacted by several factors, including the




                            -1-
challenging economic times; increased competition for government
business; reduced discretionary spending by government agencies;
and l egislation affecting FPI's status. As a result, in recent
years, FPI's business and consequently the program has incurred
substantial losses and inmate employment l evels have dropped
precipitously.   FPI continues to seek to minimize its losses and
more narrowly tailor its operations to meet customer
requirements.

During fiscal year 2012, FPI received legislative authority to
participate in the Prison Industries Enhancement Certification
Program (PIECP) and to manufacture products that would otherwise
be produced outside of the United States, as approved by FPI's
Board of Directors. with the passage of these authorities, FPI's
Board has approved 14 pilot programs for repatriated products.
FPI anticipates these pilot projects will assist in further
reducing its losses.

As demonstrated throughout FPI's 78 years of existence, The Board
of Directors, senior management , and staff will continue to
respond to challenges and focus on improving the overall
performance of the corporation.   FPI appreciates the outstanding
contributions and dedication of its staff as well as the
exceptional leadership provided by its Board of Directors during
these challenging times.




               els, Jr.
                                  '1J)~~
                                   Mary M. Mitchell
Chief Executive Officer            Chief Operating Officer




                            -2-
U.S. DEPARTMENT OF JUSTICE


FEDERAL PRISON INDUSTRIES, INC.

          MANAGEMENT’S
       DISCUSSION & ANALYSIS
            (UNAUDITED)




                -3-
This page intentionally left blank.




               -4-
                             U.S. Department of Justice

                            Federal Prison Industries, Inc.

                         Management’s Discussion and Analysis

                                     (Unaudited)



Mission

It is the mission of Federal Prison Industries, Inc. (FPI) to protect society and reduce crime by
preparing inmates for successful reentry through job training.

Organizational Structure of Federal Prison Industries, Inc.

FPI is a wholly-owned government corporation created by Congress in 1934. FPI is authorized to
operate industries in federal penal and correctional institutions and disciplinary barracks (18 U.S.C. §
4121 to § 4129). The Director of the Federal Bureau of Prisons (BOP), who has jurisdiction over all
federal correctional institutions, is the Chief Executive Officer. General management of FPI is
provided by the Chief Operating Officer who also serves as an Assistant Director for the BOP.

In fiscal year 2012, FPI operated in six business segments: Clothing and Textiles, Electronics, Fleet
and Industrial Products, Office Furniture, Recycling, and Services. FPI has industrial and service
operations at 81 factories located at 63 prison facilities representing approximately 8% of the work
eligible inmate population as of September 30, 2012. Factories are operated by FPI supervisors and
managers, who train and oversee the work of inmates. The factories utilize raw material and
component parts purchased from the private sector to produce finished goods. Orders for goods and
services are obtained through marketing and sales efforts managed by FPI staff. Some products and
all services are provided on a non-mandatory, preferred source basis.

FPI processes primarily all customer orders and invoicing through a centralized customer service and
accounts receivable center at Lexington, Kentucky. Vendor payments are processed at a centralized
accounts payable center at the Butner, North Carolina facility.

Financial Structure

FPI operates as a revolving fund and does not receive an annual appropriation. The majority of
revenues are derived from the sale of products and services to other federal departments, agencies,
and bureaus. Operating expenses such as the cost of raw materials and supplies, inmate wages, staff
salaries, and capital expenditures are applied against these revenues resulting in operating income or
loss, which is reapplied toward operating costs for future production. In this regard, FPI makes
capital investments in buildings and improvements, machinery, and equipment as necessary in the
conduct of its industrial operation.

FPI sells products and services to the majority of federal departments, agencies and bureaus. FPI’s
largest federal government customers include the Department of Defense (DOD), the Department of




                                                 -5-
Homeland Security (DHS), the Department of Justice (DOJ), the General Services Administration
(GSA), and the Social Security Administration (SSA).

Critical Accounting Policies

The following discussion and analysis of FPI’s financial condition, results of operations, liquidity
and capital resources are based upon FPI’s financial statements, which have been prepared in
accordance with U.S. generally accepted accounting principles based on accounting standards issued
by the Financial Accounting Standards Board (FASB), the private sector standards-setting body.
These generally accepted accounting principles require FPI management to make estimates and
judgments that affect the reported amount of assets, liabilities, revenues and expenses. In this regard,
FPI management evaluates the estimates on an on-going basis, including those related to product
returns, bad debt, inventories, long-lived assets, and contingencies and litigation. FPI bases its
estimates upon historical experience and various other assumptions that FPI believes are reasonable
under the circumstances. The actual results may differ from these estimates when assumptions or
conditions change.

FPI believes that some of its accounting policies involve complex or higher degrees of judgment than
its other accounting policies. The following accounting policies have been identified by FPI
management as being critical and therefore require more significant estimates or reliance on a higher
degree of judgment on the part of FPI management.

Revenue recognition: Revenue is generally recognized when 1) delivery has occurred or services
have been rendered, 2) persuasive evidence of an arrangement exists, 3) there is a fixed or
determinable price, and 4) collectability is reasonably assured. Revenue from contracts that specify a
customer acceptance criteria is not recognized until either customer acceptance is obtained or upon
completion of the contract. Sales returns are primarily replaced with like items and are recorded as
they occur.

Revenue is recognized on multiple element (numerous stages of product delivery, set up, and
installation) agreements as a single unit of accounting for manufactured items when the product has
been accepted by the customer. Revenue for services provided on behalf of FPI is recognized when
the service provider presents a valid invoice including a customer acceptance or completion notice.

Allowance for doubtful accounts receivable: The allowance for doubtful accounts is based upon
an analysis of several factors including payment trends, historical write off experience, credit quality
for non-governmental accounts, and specific analysis of collectability of an account. During the
course of time, these factors may change which will cause the allowance level to adjust accordingly.
As part of their analysis, customer accounts determined to be unlikely to be paid are recorded as a
charge to bad debt expense in the income statement and the allowance account is increased. When it
becomes certain that a customer account will not be paid, the receivable is written off by removing
the balance from accounts receivable.

As of September 30, 2012 and September 30, 2011, FPI had established an allowance for bad debt in
the amount of $.52 million and $.66 million on accounts receivable balances of $26.66 million and



                                                 -6-
$47.34 million, respectively.

Inventory valuation: FPI maintains its inventory primarily for the manufacture of goods for sale to
its customers. FPI’s inventory is composed of three categories: Raw Materials, Work-in-Process,
and Finished Goods. These categories are generally defined by FPI as follows: Raw Materials
consist of materials that have been acquired and are available for the production cycle, Work-in-
Process is composed of materials that have moved into the production process and have some
measurable amount of labor and overhead added by FPI, Finished Goods are materials with FPI
added labor and overhead that have completed the production cycle and are awaiting sale to
customers.

Raw material inventory value is based upon moving average cost. Inventories are valued at the
lower of average cost or market value (LCM) and include materials, labor and manufacturing
overhead. Market value is calculated on the basis of the contractual or anticipated selling price, less
allowance for administrative expenses. FPI values its finished goods and sub-assembly items at a
standard cost that is periodically adjusted to approximate actual cost. FPI has established inventory
allowances to account for LCM adjustments and obsolete items that may not be utilized in future
periods.

Program Values

It is FPI’s vision to protect society, reduce crime, aid in the security of the nation’s prisons and
decrease taxpayer burden, by assisting inmates with developing vital skills necessary for successful
re-entry to society. Through the production of market-priced quality goods and services, FPI provides
job training and work opportunities to inmates, while minimizing impact on private industry and
labor.

The goal of FPI is to reduce undesirable inmate idleness by providing a full-time work program for
inmate populations (goal of approximately 25 percent of “work eligible” inmates). Many of the
inmates do not have marketable employment skills. FPI provides a program of constructive
industrial work and services wherein job skills can be developed and work habits acquired.

FPI has existed as an effective correctional program for 78 years. Over the course of these years, FPI
has positively impacted countless staff and inmate lives. In the face of an escalating inmate
population and an increasing percentage of inmates with histories of violence, FPI’s programs have
helped ease tension and avert volatile situations, thereby protecting lives and federal property. FPI
work and education programs provide meaningful activities for inmates, thereby playing an essential
role in the operation of safe, secure and less costly prisons.

At the same time, FPI provides opportunities for inmates who want to take the personal
responsibility for rehabilitating themselves. More than 95 percent of inmates eventually will be
returned to society; industrial and educational programs can help them to steer clear of criminal
activity after release. Participation in FPI programs improves the likelihood that inmates will remain
crime-free upon their release from BOP custody. A comprehensive study conducted by the BOP
demonstrated that FPI provides inmates with an opportunity to develop work ethics and skills,



                                                 -7-
contributes substantially to lower recidivism and increases job-related success of inmates upon
release. This study indicates that inmates involved in FPI work programs and educational programs
are substantially less likely to return to prison. The impact on the lives of people who live in the
communities in which these inmates will return is immeasurable. Countless lives are spared the
devastating impact of continued criminal activity.


Analysis of Financial Statements

Cash and Investments

Cash and Cash Equivalents increased $9.0 million during the year. A $20.5 million reduction in
Accounts Receivable along with successful cost containment measures resulted in an increase in FPI
(non-advance) cash of $31.1 million during fiscal year 2012. A reduction in Inventories of $4.7
million also positively affected the cash balance in fiscal year 2012. These positive impacts were
offset by a decrease in Cash Advances of $22.1 million. FPI’s cash advances are primarily for the
purchase of inventory in support of the Fleet and Industrial Products vehicle retrofitting operation.
The primary customer for these operations is the Department of Homeland Security; advances
fluctuate throughout the year as they receive appropriations.

Accounts Receivable

The Accounts Receivable balance decreased $20.5 million during fiscal year 2012. The Accounts
Receivable balance of $26.1 million as of September 30, 2012, represents 57.9 percent of
September’s total revenues. FPI’s average days to collect for fiscal year 2012 were approximately 27.
The Accounts Receivable balance over sixty days old represented only 4.5 percent of the total
balance as of September 30, 2012. Decreases in Accounts Receivable are related to a reduction in
sales and increased collection efforts.

Inventory

Inventory decreased by $4.7 million during fiscal year 2012. FPI continued to place an increased
emphasis on inventory reduction during fiscal year 2012. The Electronics and Office Furniture
business segments were the primary contributors to the reduction with decreases of $7.2 and $11.1
respectively. The Electronics segment decrease can be attributed to the decrease in solar panel and
cable product group inventories totaling $2.3 million and $4.6 million respectively. The decrease in
Office Furniture business segment can be attributed to a decrease of $7.2 million in Finished Goods
at Customer as of September 30, 2012, compared to September 30, 2011. Offsetting increases
resulted for Fleet and Industrial Products and Clothing and Textiles business segments. The increases
for the Fleet and Industrial Products business group can be attributed to the cyclical nature of the
Retrofit product line. Increases for Clothing and Textiles are due to significantly increased backlog in
the fourth quarter.




                                                 -8-
Liabilities

Total Liabilities decreased $4.8 million during fiscal year 2012 as a result of an Advances Payable
decrease of $4.8 million. This decrease is attributable to a change in customer advances payable on
hand as a result of a decrease in customer contracts.

Revenue, Cost of Revenue and Net Loss

Total Revenue decreased by $201.9 million while total cost of revenue decreased by $175.4 million.
The decrease in revenue resulted primarily from the decrease in sales revenue of $139.3 million, a
reduction in corresponding freight collections of $9.7 million, a decrease in service revenue
generated by way of the Economy Act of $13 million, and sales of raw material solar cells during
fiscal year 2011 totaling $32.7 million for which no comparable activity occurred during fiscal year
2012. The largest business segments showing a decrease in sales were Fleet and Industrial Products
with $94.6 million, Clothing and Textiles with $24.1 million, Office Furniture with $13.4 million,
and Electronics with $8.6 million. The Recycling and Services business segments had modest
offsetting increases of $0.3 million and $1.1 million in sales respectively. Despite capacity
reductions and cost containment efforts, FPI’s gross profit percentage decreased from 7.7% in fiscal
year 2011 to 6.2% in fiscal year 2012 as the result of underutilized capacity in the electronics and
Fleet and Industrial Products business segments. The Net Loss increased $26.4 million in fiscal year
2012 compared to fiscal year 2011. Factory Earnings were $30.3 million lower in fiscal year 2012
than the previous fiscal year.

Business Segments

In fiscal year 2012, FPI’s businesses were organized, managed and internally reported as six
operating segments based on products and services. These segments are Clothing and Textiles;
Electronics; Fleet and Industrial Products; Office Furniture; Recycling; and Services. FPI is not
dependent on any single product as a primary revenue source; however, it is dependent on the federal
government market for the sale of its products. FPI’s net industrial income (earnings) at the business
segment level consists of sales offset by cost of goods sold and under /over applied overhead. FPI’s
net sales and earnings for the fiscal years ended September 30, 2012 and 2011 for each of its current
business segments is presented for comparative purposes:




                                                -9-
Business Segment                                    Fiscal Year
Clothing and Textiles                    2012                        2011
Sales                                   $214,522                   $238,631
Earnings                                 $20,642                    $34,035
Electronics
Sales                                    $67,865                     $76,443
Earnings                                 ($7,384)                    ($7,391)
Fleet and Industrial Products
Sales                                   $138,551                   $233,144
Earnings                                  $1,553                    $21,116
Office Furniture
Sales                                   $142,371                   $155,819
Earnings                                  $9,648                    $11,141
Recycling
Sales                                    $15,563                     $15,276
Earnings                                  $4,764                      $4,555
Services
Sales                                    $27,242                     $26,110
Earnings                                  $2,490                     ($1,447)
Corporate Total
Sales                                   $606,114                    $745,423
Earnings                                 $31,713                     $62,009

FPI redefined its business segments from seven categories to six in fiscal year 2012. The Fleet
Management and Vehicular Components and Industrial Products business segments were
consolidated. As a result, net sales and earnings for fiscal year 2011 for Fleet Management and
Vehicular Components and Industrial Products have been combined for comparative purposes.


Possible Future Effects of Existing Events and Conditions

As reported in fiscal years 2009 through 2011, FPI continues to face the negative impact of economic
and legislative forces. In fiscal years 2013 and beyond, FPI faces the additional challenge of the
shrinking federal budget, the resulting decline in discretionary spending and the ultimate impact of a
decline in FPI sales. FPI continues to address these external challenges through aggressively
pursuing new customers and new products, involvement in legislative initiatives, cost reductions,
and strict measures to control cash.

During FY 2012, FPI encountered a decline in sales for the third consecutive year and experienced a
net loss for the fourth consecutive year. FPI’s net loss of $28.3 million during FY 2012 included
$7.3 million in losses due to Property, Plant and Equipment (PP&E) write-offs related to capacity
                                               -10-
reductions announced in prior years. If the referenced PP&E losses were to be factored out, FPI net
losses during FY 2012 would have been $21.0 million. In addition to capacity and overhead
reductions, FPI continued to focus efforts towards maintaining minimal inventory on hand,
collections of receivables and maintaining capital improvements at a minimum. Through its leaning
efforts, FPI was able to increase its non-advance cash by $31.1 million.

The Consolidated and Further Continuing Appropriations Act of 2012 (P.L. 112-55) authorized FPI
to participate in the Prison Industries Enhancement Certification Program (PIECP) and to
manufacture products that would otherwise be produced outside of the United States, as approved by
FPI's Board of Directors. Additionally, during FY 2012, FPI has placed renewed emphasis on the
use of job sharing and half time inmate workers. This will allow for an increase in the number of
inmates participating in the FPI program while reducing the per-inmate cost of employment.

As with any government entity, civilian salaries and benefits continue to be a significant portion of
FPI’s overhead costs. In addition to the completion of the capacity reductions during FY 2012, FPI
reduced staffing through attrition primarily in the Central Office. Included in the losses during the
first three quarters of the year are salaries for staff that are no longer on the rolls or have fulfilled
other vacated positions in the organization. Due to the finalization of all previously announced
capacity reductions, FPI’s salary base leveled off during the fourth quarter of FY 2012. The
combined effect of all staffing reductions resulted in a decline of $9.1 million in FPI’s salary base
during FY 2012 which will provide a savings (including benefits) of approximately $13 million per
year in future years. Additionally, in August 2012, FPI announced the realignment of its Central
Office team to operate more efficiently in support of FPI’s current business environment. The
realignment resulted in the reduction of six business segments to five while creating a new group
whose primary purpose is to pursue new business opportunities in all product and service areas
including repatriation and PIECP.

FPI projects a significant decline in sales for FY 2013 and will continue to take a proactive approach
toward minimizing losses and operating at a level that is commensurate with its current sales load.

In December 2009, the Department of Justice, Office of the Inspector General, initiated an
investigation regarding the manufacturing and quality procedures for some of the military helmets
produced by FPI. This investigation is still ongoing. FPI has terminated production of helmets. FPI’s
management is committed to ensuring FPI produces a quality product that meets the requirements of
our customers.




                                                 -11-
This page intentionally left blank.




               -12-
U.S. DEPARTMENT OF JUSTICE


FEDERAL PRISON INDUSTRIES, INC.

    INDEPENDENT AUDITORS’ REPORTS




                 -13-
This page intentionally left blank.
	




               -14-
                               INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS


Inspector General
United States Department of Justice


Chief Executive Officer
Board of Directors
Federal Prison Industries, Inc.
United States Department of Justice


We have audited the accompanying Balance Sheets of the Federal Prison Industries, Inc. (FPI), a component of the
United States Department of Justice (DOJ), as of September 30, 2012 and 2011, and the related Statements of
Operations and Cumulative Results of Operations, and Statements of Cash Flows for the years then ended. These
financial statements are the responsibility of FPI’s management. Our responsibility is to express an opinion on
these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended. Those standards and OMB Bulletin No. 07-04 require
that we plan and perform the audits to obtain reasonable assurance about whether the financial statements are
free of material misstatement. An audit includes consideration of internal control over financial reporting as a
basis for designing audit procedures that are appropriate in the circumstances, but not for the purpose of
expressing an opinion on the effectiveness of FPI’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting principles used, and
significant estimates made by management, as well as evaluating the overall financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the financial
position of the United States Department of Justice, Federal Prison Industries, Inc. as of September 30, 2012 and
2011, and the results of its operations and cash flows for the years then ended, in conformity with accounting
principles generally accepted in the United States of America.

Accounting principles generally accepted in the United States of America and OMB Circular No. A-136, Financial
Reporting Requirements, require that the Management’s Discussion and Analysis be presented to supplement the
basic financial statements. Such information, although not a part of the basic financial statements, is required by
the Federal Accounting Standards Advisory Board and OMB, who consider it to be an essential part of financial
reporting for placing the basic financial statements in an appropriate operational, economic, or historical context.
We have applied certain limited procedures to the required supplementary information in accordance with
auditing standards generally accepted in the United States of America, which consisted of inquiries of management




                                                       -15-
about the methods of preparing the information and comparing the information for consistency with
management’s responses to our inquiries, the basic financial statements, and other knowledge we obtained during
our audit of the basic financial statements. We do not express an opinion or provide any assurance on the
information because the limited procedures do not provide us with sufficient evidence to express an opinion or
provide any assurance.

In accordance with Government Auditing Standards, we have also issued our reports dated November 5, 2012, on
our consideration of FPI’s internal control over financial reporting and on our tests of its compliance with certain
provisions of applicable laws and regulations. The purpose of those reports is to describe the scope of our testing
of internal control over financial reporting and compliance and the results of that testing, and not to provide an
opinion on the internal control over financial reporting or on compliance. Those reports are an integral part of an
audit performed in accordance with Government Auditing Standards and should be read in conjunction with this
report in assessing the results of our audits.


COTTON & COMPANY LLP




Alan Rosenthal, CPA, CFE
Partner

November 5, 2012
Alexandria, Virginia




                                                       -16-
                    INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING


Inspector General
United States Department of Justice


Chief Executive Officer
Board of Directors
Federal Prison Industries, Inc.
United States Department of Justice


We have audited the Balance Sheets of the Federal Prison Industries, Inc. (FPI), a component of the United States
Department of Justice (DOJ), as of September 30, 2012 and 2011, and the related Statements of Operations and
Cumulative Results of Operations, and Statements of Cash Flows for the years then ended, and have issued our
report thereon dated November 5, 2012. We conducted our audits in accordance with auditing standards
generally accepted in the United States of America; standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended.

FPI’s management is responsible for establishing and maintaining effective internal control over financial
reporting. In planning and performing our fiscal year 2012 audit, we considered FPI’s internal control over
financial reporting as a basis for designing our auditing procedures for the purpose of expressing our opinion on
the financial statements, but not for the purpose of expressing an opinion on the effectiveness of FPI’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of FPI’s internal
control over financial reporting or on management’s assertion on internal control included in Management’s
Discussion and Analysis. We limited our internal control testing to only those controls necessary to achieve the
objectives described in Government Auditing Standards and OMB Bulletin No. 07-04. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982, such as controls relevant to ensuring efficient operations.

A deficiency in internal control exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and correct
misstatements on a timely basis. A material weakness is a deficiency, or combination of deficiencies, in internal
control, such that there is a reasonable possibility that a material misstatement of the entity’s financial statements
will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the second
paragraph and was not designed to identify all deficiencies in internal control over financial reporting that might
be deficiencies, significant deficiencies, or material weaknesses. In our fiscal year 2012 audit, we did not identify
any deficiencies in internal control over financial reporting that we consider to be material weaknesses, as defined
above.




                                                       -17-
This report is intended solely for the information and use of FPI’s management, DOJ Office of the Inspector
General, DOJ Justice Management Division, OMB, U.S. Government Accountability Office, and the U.S. Congress; it
is not intended to be and should not be used by anyone other than these specified parties.


COTTON & COMPANY LLP




Alan Rosenthal, CPA, CFE
Partner

November 5, 2012
Alexandria, Virginia




                                                    -18-
                         INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND OTHER MATTERS


Inspector General
United States Department of Justice


Chief Executive Officer
Board of Directors
Federal Prison Industries, Inc.
United States Department of Justice


We have audited the Balance Sheets of the Federal Prison Industries, Inc. (FPI), a component of the United States
Department of Justice (DOJ), as of September 30, 2012 and 2011, and the related Statements of Operations and
Cumulative Results of Operations, and the Statements of Cash Flows for the years then ended, and have issued our
report thereon dated November 5, 2012. We conducted our audits in accordance with auditing standards
generally accepted in the United States of America; standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended.

FPI’s management is responsible for complying with laws, regulations, and contract agreements applicable to the
FPI. As part of obtaining reasonable assurance about whether FPI’s fiscal year 2012 financial statements are free
of material misstatement, we performed tests of its compliance with certain provisions of laws, regulations, and
contract agreements, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin
No. 07-04, including the provisions referred to in Section 803(a) of the Federal Financial Management
Improvement Act of 1996 (FFMIA). However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion. The results of our tests of compliance,
exclusive of those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are
required to be reported under Government Auditing Standards and OMB Bulletin No. 07-04.

Under FFMIA, we are required to report whether FPI’s financial management systems substantially comply with
federal financial management system requirements; applicable federal accounting standards; and application of
the United States Standard General Ledger at the transaction level based upon U.S. generally accepted accounting
principles issued by the Financial Accounting Standards Board, as applicable to the FPI in accordance with the
provisions of the Government Corporation Control Act of 1945 (31 U.S.C. §9101 to 9110) and Statement of Federal
Financial Accounting Standards No. 34, The Hierarchy of Generally Accepted Accounting Principles, Including the
Application of Standards Issued by the Financial Accounting Standards Board. To meet this requirement, we
performed tests of compliance with FFMIA Section 803(a) requirements.

The results of our tests of FFMIA disclosed no instances in which FPI’s financial management systems did not
substantially comply with the requirements described in the preceding paragraph.




                                                      -19-
This report is intended solely for the information and use of FPI’s management, DOJ Office of the Inspector
General, DOJ Justice Management Division, OMB, U.S. Government Accountability Office, and the U.S. Congress; it
is not intended to be and should not be used by anyone other than these specified parties.


COTTON & COMPANY LLP




Alan Rosenthal, CPA, CFE
Partner

November 5, 2012
Alexandria, Virginia




                                                    -20-
U.S. DEPARTMENT OF JUSTICE


FEDERAL PRISON INDUSTRIES, INC.

    PRINCIPAL FINANCIAL STATEMENTS

          AND RELATED NOTES





                  -21-
This page intentionally left blank.
	




               -22-
                                                                    Federal Prison Industries, Inc.
                                                                                                       Balance Sheets

As of September 30,
(DOLLARS IN THOUSANDS)                                                                2012                       2011

Assets

Current:
  Cash and cash equivalents                                                   $      300,544             $      291,510
  Accounts receivable, net                                                            26,141                     46,680
  Inventories, net                                                                   129,254                    133,934
  Other assets                                                                           828                      2,582
         Total current assets                                                        456,767                    474,706

Property, plant and equipment, net                                                     87,631                   102,775
         Total Assets                                                         $      544,398             $      577,481

Liabilities and United States Government Equity

Current:
  Accounts payable                                                            $        43,595            $        42,192
  Deferred revenue                                                                     94,892                     99,669
  Accrued salaries and wages                                                            9,610                     10,620
  Accrued annual leave                                                                  8,133                      8,892
  Other accrued expenses                                                                7,474                      9,681
         Total current liabilities                                                   163,704                    171,054
FECA actuarial liability                                                               18,920                     16,403
         Total Liabilities                                                           182,624                    187,457
United States Government Equity
  Initial capital                                                                      4,176                      4,176
  Cumulative results of operations                                                   357,598                    385,848

  Total United States Government Equity                                              361,774                    390,024
         Total Liabilities and United States Government Equity                $      544,398             $      577,481

                                                  The accompanying notes are an integral part of these financial statements.




                                                  -23-
                                                       Federal Prison Industries, Inc.
                            Statements of Operations and Cumulative Results of Operations

For the fiscal years ended September 30,
(DOLLARS IN THOUSANDS)                                                 2012                         2011

Revenue:

 Net sales                                                      $      606,114             $       745,423

 Other revenue                                                          92,043                     154,654

 Total revenue                                                         698,157                     900,077

Cost of revenue:

 Cost of sales                                                         566,410                     683,928

 Cost of other revenue                                                  88,756                     146,642

 Total Cost of Revenue                                                 655,166                     830,570

Gross profit                                                            42,991                       69,507

Operating expenses:

 Sales and marketing                                                      5,916                       7,237

 General and administrative                                            101,938                     105,103


 Total operating expenses                                              107,854                     112,340


Loss from operations                                                   (64,863)                     (42,833)

Interest income                                                             138                          191

Interest expense                                                              (1)                          (3)

Other income, net                                                       36,476                       40,835


Net loss                                                               (28,250)                       (1,810)

Cumulative results of operations, beginning of fiscal year             385,848                     387,658


Cumulative results of operations, end of fiscal year            $      357,598              $      385,848


                                     The accompanying notes are an integral part of these financial statements.




                                               -24-
                                                              Federal Prison Industries, Inc.
                                                                                   Statements of Cash Flows

For the fiscal years ended September 30,
(DOLLARS IN THOUSANDS)                                                          2012                       2011

CASH FLOWS FROM OPERATING ACTIVITIES

Net loss                                                                $       (28,250)           $         (1,810)
Adjustments to reconcile net income to net cash
   provided by operating activities:

      Depreciation and amortization                                              10,067                     10,469
      Loss on disposal of property, plant and equipment                           7,549                      4,985
      Changes in:
       Accounts receivable                                                       20,539                    (12,674)
       Inventories                                                                4,680                     69,397
       Other assets                                                               1,755                      1,109
       Accounts payable and accrued expenses                                        (56)                    (2,531)
       Deferred revenue                                                          (4,777)                   (98,549)

Net cash provided by (used in) operating activities                              11,507                    (29,604)


CASH FLOWS FROM INVESTING ACTIVITIES

  Purchases of property, plant and equipment                                      (2,384)                    (1,334)
  Construction-in-progress of plant facilities                                       (89)                       ­

Net cash used in investing activities                                             (2,473)                    (1,334)


Net increase (decrease) in cash and cash equivalents                             9,034                     (30,938)
Cash and cash equivalents, beginning of fiscal year                            291,510                     322,448
Cash and cash equivalents, end of fiscal year                           $      300,544             $       291,510




                                            The accompanying notes are an integral part of these financial statements.




                                                  -25-
                                    Fiscal Years 2012 and 2011
                                   Notes to Financial Statements
                                      (Dollars in Thousands)

Note 1. Organization and Mission

Federal Prison Industries, Inc. (FPI) was established in 1934 by an act of the United States Congress.
FPI operates under the trade name UNICOR, as a wholly-owned federal government corporation
within the Department of Justice, and functions under the direction and control of a Board of
Directors, (the “Board”). Members of the Board are appointed by the President of the United States
of America and represent retailers and consumers, agriculture, industry, labor, the Attorney General,
and the Secretary of Defense. FPI’s statutory mandate is to provide employment and training for
inmates in the Federal Prison System while remaining self-sufficient through the sale of its products
and services.

FPI’s federal government customers include departments (percent of Revenue shown in parenthesis),
agencies and bureaus such as the Department of Defense (52%), the Department of Homeland
Security (15%), the Department of Justice (11%), the General Services Administration (6%), and the
Social Security Administration (4%). These and other federal organizations are generally required to
purchase products from FPI, if its products meet the customer’s price, quality, and delivery
standards, under a mandatory source preference specified in FPI’s enabling statute and the Federal
Acquisition Regulation.

FPI has industrial and service operations at 81 and 88 factories located at 63 and 66 prison facilities
that employed 13,369 and 14,200 inmates representing approximately 8% of the work eligible inmate
population as of September 30, 2012 and September 30, 2011, respectively.


Note 2. Summary of Significant Accounting Policies

Basis of Accounting

FPI transactions are recorded on the accrual basis of accounting. Under the accrual basis, revenues
are recorded when earned and expenses are recorded when incurred, regardless of when the cash is
exchanged.

Basis of Presentation

FPI has historically prepared its external financial statements in conformity with U.S. generally
accepted accounting principles based on accounting standards issued by the Financial Accounting
Standards Board (FASB), the private sector standards-setting body. The Federal Accounting
Standards Advisory Board (FASAB) has been designated as the standards-setting body for federal
financial reporting entities with respect to the establishment of US GAAP. FASAB allows certain
government agencies to utilize FASB standards for Financial Statement presentations.




                                                -26-
                                     Fiscal Years 2012 and 2011
                                    Notes to Financial Statements
                                       (Dollars in Thousands)

Use of Estimates

The preparation of financial statements in conformity with US GAAP requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities and disclosure of
contingent assets and contingent liabilities at the date of the financial statements and reported
amounts of revenues and expenses during the reporting period. Actual results may differ from those
estimates.

Cash and Cash Equivalents

FPI considers all highly liquid investments purchased with an original maturity of three months or
less to be cash equivalents. FPI limits its investment activities and cash equivalents to short-term
overnight repurchase agreements with the Bureau of Public Debt of the United States Treasury. The
market value of these overnight repurchase agreements is equivalent to cost.

Accounts Receivable / Concentration of Credit Risk

Financial instruments that potentially subject FPI to concentrations of credit risk consist primarily of
accounts receivable. FPI sells products and services to various federal government departments,
agencies and bureaus, as well as certain private sector companies, without requiring collateral.
Accounts receivable consists of amounts due from those entities and is stated net of an allowance for
doubtful accounts.

FPI routinely assesses the payment histories of its federal customers and the financial strength of its
private sector customers and maintains allowances for anticipated losses as they become evident. In
this regard, an insignificant amount of accounts receivable remained past due at September 30, 2012
and September 30, 2011. A significant portion of these past due items relate to billings to various
entities within Department of Defense (DOD) who rely on the Defense Finance and Accounting
Service (DFAS) to process vendor payments. Historically, customer payments processed through
DFAS have generally taken longer to receive than payments from other federal and private sector
customers. FPI believes that ultimately, a majority of its past-due accounts receivable are fully
collectable. The amount due FPI, net of allowances, from DOD for the fiscal years ended September
30, 2012 and 2011 was $14,525 and $27,399 respectively.

While federal accounts receivable are normally fully collectible in accordance with federal law, FPI
has established an allowance for future losses against its federal accounts receivable to account for
potential billing errors related to pricing and customer discounts, as well as instances of expired or
cancelled funding from its federally appropriated customers. At September 30, 2012 and 2011, FPI’s
allowance for doubtful accounts is stated at approximately $519 and $660, respectively, of which
approximately $98 and $131, respectively, represents the amounts allocated against federal accounts
receivable.




                                                 -27-
                                    Fiscal Years 2012 and 2011
                                   Notes to Financial Statements
                                      (Dollars in Thousands)

Inventories

FPI maintains its inventory primarily for the manufacture of goods for sale to its customers. FPI’s
inventory is composed of three categories: Raw Materials, Work-in-Process, and Finished Goods.
These categories are generally defined by FPI as follows: Raw Materials consist of materials that
have been acquired and are available for the production cycle, Work-in-Process is composed of
materials that have moved into the production process and have some measurable amount of labor
and overhead added by FPI, Finished Goods are materials with FPI added labor and overhead that
have completed the production cycle and are awaiting sale to customers.

Raw material inventory value is based upon moving average cost. Inventories are valued at the
lower of average cost or market value (LCM) and include materials, labor and manufacturing
overhead. Market value is calculated on the basis of the contractual or anticipated selling price, less
allowance for administrative expenses. FPI values its finished goods and sub-assembly items at a
standard cost that is periodically adjusted to approximate actual cost. FPI has established inventory
allowances to account for LCM adjustments and obsolete items that may not be utilized in future
periods.

Advances to Vendors

FPI generally does not offer advances to the public; however, where warranted, FPI will on occasion
make an advance to a vendor upon their request. Historically, these advances have been insignificant
and made primarily to the Industries for the Blind. Prior to issuing advances to a vendor, the
Centralized Accounts Receivable section performs a review as though they were a public customer,
to include performing a due diligence review to assess risk and a review of applicant financial
statements. A letter of credit is obtained as needed based on the results of this review. The FPI
Controller approves advances prior to their disbursement. Advances are reduced by offset to the
vendor invoice as goods are delivered.

Revenue Recognition

FPI sells a wide range of products and services to a diversified base of customers, primarily
governmental departments, agencies and bureaus. Revenue is generally recognized when delivery
has occurred or services have been rendered, persuasive evidence of an arrangement exists, there is a
fixed or determinable price, and collectability is reasonably assured. Revenue from contracts that
require customer acceptance are not recognized until either customer acceptance is obtained, or upon
completion of the contract. Sales returns are primarily replaced with like items and are recorded as
they occur.

Revenue is recognized on multiple element agreements as a single unit of accounting for
manufactured items when the product has been accepted by the customer. Revenue for services
provided on behalf of FPI through an outside company is recognized when the service provider
presents a valid invoice including a customer acceptance or completion notice.

                                                -28-
                                    Fiscal Years 2012 and 2011
                                   Notes to Financial Statements
                                      (Dollars in Thousands)

FPI records as other revenue the shipping and handling costs that have been billed to our customers,
installation costs for FPI products, and items procured for its customers as part of procurement
services provided by the Marketing, Activation, Research, and Corporate Support Branch. The cost
of providing this service is recorded as a cost of other revenue.

Deferred revenue is comprised of customer cash advances, which have been paid to FPI prior to the
manufacturing of goods, delivery of goods, or performance of services.

Other income includes imputed financing for retirement, health benefits and life insurance (Note 8).

Property, Plant and Equipment

During 2012, FPI changed the capitalization criteria for General Property, Plant and Equipment. The
capitalization threshold of purchased property, equipment, buildings and vehicles was increased from
an initial cost of $5 thousand to $10 thousand. Property, plant and equipment are stated at cost, net
of accumulated depreciation. Depreciation is computed using the straight-line method over the
following estimated useful lives:

                                        Years
Machinery & Equipment                   2 - 25
Computer Hardware                       2 - 10
Computer Software                       2-5
Building & Improvements                 24 - 40

Upon retirement or disposition of property and equipment, the related gain or loss is reflected in the
statements of operations. Repairs and maintenance costs are expensed as incurred.

Taxes

As a wholly-owned corporation of the federal government, FPI is exempt from federal and state
income taxes, gross receipts tax, and property taxes.

Reclassifications

Certain fiscal year 2011 financial statement line items have been reclassified to conform with the
current year presentation. The reclassifications had no material effect on total assets, liabilities,
equity, cumulative results of operations or cash flows as previously reported.




                                                  -29-
                                    Fiscal Years 2012 and 2011
                                   Notes to Financial Statements
                                      (Dollars in Thousands)

Note 3. Accounts Receivable, Net

Accounts receivable, net consists of the following:

As of September 30,                                            2012                  2011

Intragovernmental billed receivables                         $ 21,676             $ 34,491
Private sector billed receivables                               4,984               12,849
                                                               26,660               47,340
       Less allowance for doubtful accounts                       519                  660

Accounts receivable, net                                     $ 26,141             $ 46,680

FPI incurred bad debt expense of $564 and $(66), respectively, for the fiscal years ended September
30, 2012 and 2011.


Note 4. Inventories, Net

Inventories, net consist of the following:

As of September 30,                                           2012                    2011
Raw materials                                              $ 37,956               $ 46,988
Raw materials – vehicles                                     27,871                 17,500
Work-in-process                                              21,740                 25,857
Finished sub-assemblies                                       5,503                  6,138
Finished goods                                               42,955                 35,206
Finished goods – acceptance contracts                        19,645                 29,510
                                                            155,670                161,199
Less inventory allowance                                     26,416                 27,265

Inventories, net                                          $ 129,254              $ 133,934


$27,871 of FPI’s fiscal year 2012 and $17,500 of FPI’s fiscal year 2011, raw materials balance
represents vehicles and component parts for use in the Fleet Management and Vehicular Components
business group’s retrofit product line. A majority of that inventory balance has been contracted on
behalf of the Customs and Border Protection and Bureau of Immigration and Customs Enforcement
of the Department of Homeland Security (DHS) for retrofit services that are performed by FPI. As
part of an interagency agreement, DHS provides advance funding to FPI to procure these vehicles.
Revenue is recognized by FPI at the time of shipment of retrofitted vehicles to DHS.



                                              -30-
                                     Fiscal Years 2012 and 2011
                                    Notes to Financial Statements
                                       (Dollars in Thousands)

$19,645 of FPI’s fiscal year 2012 and $29,510 of its fiscal year 2011 finished goods balance
represents goods shipped to customers or their agents for unrecognized revenue due to acceptance
criteria within the customer contract. The balances as of September 30, 2012 and September 30,
2011 are primarily systems furniture installations and destination acceptance contracts shipped after
the cutoff date for revenue recognition.

Included in total inventories as of September 30, 2012 and September 30, 2011, is $11,558 and
$16,345 in raw materials, work-in-process and finished goods in support of the solar panel product
line respectively.


Note 5. Property, Plant and Equipment, Net

Property, plant and equipment, net consist of the following:

As of September 30,                                                  2012                  2011

Buildings and improvements                                     $ 177,613              $ 178,347
Machinery and equipment                                          100,098                104,052
Computer hardware                                                  2,713                  2,149
Computer software                                                  6,519                  6,506
                                                                 286,943                291,054
Less accumulated depreciation                                    199,312                188,279
Property, plant and equipment, net                               $ 87,631             $ 102,775


Depreciation and amortization expense totaled $10,067 and $10,469 for the fiscal years ended
September 30, 2012 and 2011, respectively. During fiscal year 2012, FPI invested $2,473 for the
purchase and construction of property, plant and equipment. During fiscal years 2012 and 2011, FPI
deactivated factories in an effort to reduce excess factory capacity. As a result of these deactivations,
FPI incurred losses on property plant and equipment of $7,293 in fiscal year 2012, and $4,599 in
fiscal year 2011.




                                                 -31-
                                      Fiscal Years 2012 and 2011
                                     Notes to Financial Statements
                                        (Dollars in Thousands)

Note 6. Other Accrued Expenses

Other accrued expenses consist of the following:

As of September 30,                                          2012                     2011

Materials in transit                                        $ 81                $     1,108
Relocation travel expense                                   1,268                     1,053
FECA liabilities – current portion                          1,981                     1,942
Financial audit expense                                       573                       530
Telecommunication expense                                   1,226                     1,132
Utilities                                                     779                       936
Warranty expense                                              418                       444
Other expense                                               1,148                     2,536

Other accrued expenses                                    $ 7,474                   $ 9,681


Included in other expense as of September 30, 2012 and September 30, 2011 are accruals for Intra-
Departmental agreements of $774 and $622 and accruals for vendor invoices of $180 and $645,
respectively.


Note 7. Business Segments

FPI’s businesses are organized, managed and internally reported as six operating segments based on
products and services. These segments are Clothing and Textiles; Electronics; Fleet and Industrial
Products; Office Furniture; Recycling; and Services. These segments represent virtually all of FPI’s
product lines. FPI is not dependent on any single product as a primary revenue source; however, it is
dependent on the federal government market for the sale of its products and services. FPI’s net sales
for the fiscal years ended September 30, 2012 and 2011 for each of its business segments is
presented for comparative purposes:




                                                -32-
                                     Fiscal Years 2012 and 2011
                                    Notes to Financial Statements
                                       (Dollars in Thousands)

Net Sales
For the years ended September 30,                               2012                   2011

Business Segment

Clothing and Textiles                                        $ 214,522               $ 238,631
Electronics                                                     67,865                  76,443
Fleet and Industrial Products                                  138,551                 233,144
Office Furniture                                               142,371                 155,819
Recycling                                                       15,563                  15,276
Services                                                        27,242                  26,110


Net sales                                                    $ 606,114               $ 745,423



FPI redefined its business segments from seven categories to six in fiscal year 2012. The Fleet
Management and Vehicular Components and Industrial Products business segments were
consolidated. As a result, net sales for fiscal year 2011 for Fleet Management and Vehicular
Components and Industrial Products have been combined for comparative purposes.

Regulatory Compliance

FPI’s ability to add or to expand production of a specified product is regulated by the Federal Prison
Industries Reform Act (“the Act”). The Act provides specific guidelines to FPI regarding its
methodology for evaluating and reporting new or expanded products, including requiring FPI to
provide direct notice to trade associations and interested parties of such actions. Finally, publication
of annual decisions of the FPI Board of Directors and semi-annual sales disclosures are mandated
under the Act.


Note 8. Intra-Department of Justice (DOJ) / Intragovernmental Financial Activities

FPI’s financial activities interact with and are dependent upon those of DOJ and the federal
government as a whole. The following is a discussion of certain intra-DOJ and intragovernmental
activities and their relationship with FPI:

Relationship with the Federal Bureau of Prisons

FPI and the Federal Bureau of Prisons (BOP) have a unique relationship in that the nature of their
combined missions requires the sharing of facilities and responsibilities relative to the custody,
training and employment of federal inmates. The Director of the BOP, who has jurisdiction over all
federal penal correctional institutions, is the Chief Executive Officer (CEO). General management of
                                                 -33-
                                    Fiscal Years 2012 and 2011
                                   Notes to Financial Statements
                                      (Dollars in Thousands)

FPI is provided by the Chief Operating Officer who also serves as an Assistant Director of the BOP.
The BOP provides land to FPI for the construction of its manufacturing facilities and both FPI and
BOP share certain facilities, generally at no cost to FPI. In accordance with Managerial Cost
Accounting Concepts a reasonable estimate of these costs as provided by the BOP is included in
general expense and other income of FPI for the fiscal years ended September 30, 2012 and 2011,
respectively.

Self Insurance

In accordance with federal government policy, FPI is uninsured with respect to property damage,
product liability, and other customary business loss exposures. Losses incurred are absorbed as a
current operating expense of FPI or, if they are induced by factors related to FPI’s relationship with
the Federal Prison System, may be reimbursed by BOP. Certain other costs, principally relating to
personal injury claims, are paid directly by the federal government.

Federal Employees Compensation Act

The Federal Employees Compensation Act (FECA) provides income and medical cost protection to
cover federal civilian employees injured on the job, employees who have incurred a work-related
occupational disease, and beneficiaries of employees whose death is attributable to a job related
injury or occupational disease. The United States Department of Labor (DOL), which administers
FECA, annually charges each federal agency and department for its applicable portion of claims and
benefits paid in the preceding year. As of September 30, 2012 and September 30, 2011, the accrued
FECA liabilities as charged to FPI, approximated $1,981 and $1,942, respectively.

DOL also calculates the liability of the federal government for future claims and benefits, which
includes the estimated liability of death, disability, medical, and other approved costs. Future claims
and benefits are determined from an actuarial extrapolation, utilizing historical benefit payment
patterns and calculations of projected future benefit payments discounted to current value over a 23.5
year period. FPI’s estimated future liability approximated $18,920 and $16,403 at September 30,
2012 and 2011, respectively.

Retirement

Substantially all of FPI’s civilian employees are covered under either the Civil Service Retirement
System (CSRS) or the Federal Employees Retirement System (FERS). For employees covered under
CSRS (those employees hired prior to January 1, 1984), FPI contributed approximately 7 percent (for
normal retirement) or 7.5 percent (for hazardous duty retirement) of each employee’s salary. CSRS
covered employees do not have Federal Insurance Contributions Act (FICA) withholdings and, thus,
are not fully eligible to receive Social Security benefits. For employees covered by the FERS,
(generally those employees hired on or after January 1, 1984), FPI contributed (for normal
retirement) 11.9 and 11.7 percent for fiscal years ended September 30, 2012 and September 30,
2011, respectively. FPI contributed (for hazardous retirement) 26.3 and 25.7 percent for fiscal years
ended September 30, 2012 and September 30, 2011, respectively.
                                                -34-
                                     Fiscal Years 2012 and 2011
                                    Notes to Financial Statements
                                       (Dollars in Thousands)


Under FERS, employees also receive retirement benefits from Social Security and, if applicable,
benefits from a defined contribution plan (thrift). Under the thrift plan, an employee may contribute
(tax deferred) to an investment fund, up to $17,000 and $16,500 of salary for the fiscal years ended
September 30, 2012 and September 30, 2011, respectively. FPI then matches this amount up to 4
percent, in addition to an automatic 1 percent that is contributed for all FERS employees. Those
employees, which elected to remain under CSRS after January 1, 1984, continue to receive benefits
in place, and may also contribute (tax deferred) up to $17,000 of salary to the thrift plan, but with no
matching amount contributed by FPI.

CSRS and FERS are multi-employer plans. Although FPI funds a portion of pension benefits
relating to its employees, and provides for the necessary payroll withholdings, it does not maintain or
report information with respect to the assets of the plans, nor does it report actuarial data with respect
to accumulated plan benefits or the pension liability relative to its employees. The reporting of such
amounts is the responsibility of the United States Office of Personnel Management (OPM).

FPI’s contribution to both plans approximated $26,855 and $29,352 for the fiscal years ended
September 30, 2012 and 2011, respectively.

FPI must recognize its share of the cost of providing pension benefits to eligible employees utilizing
cost factors determined by the OPM. Included in general and administrative expense is
approximately $2,423 and $3,531 in the fiscal years ended September 30, 2012 and 2011,
respectively, with an offsetting credit to other income on the Statements of Operations and
Cumulative Results of Operations.

Health Benefits and Life Insurance

FPI, through the OPM, offers health and life insurance plans under which premium costs for health
care are shared between FPI and the employees. A substantial portion of life insurance premiums are
paid for by employees. Amounts paid by FPI for health benefits and life insurance approximated
$9,717 and $10,334 for the fiscal years ended September 30, 2012 and 2011, respectively.

OPM also provides health care and life insurance benefits for FPI’s retired employees. FPI must
recognize an expense related to its share of the cost of such post-retirement health benefits and life
insurance on a current basis (while its employees are still working), with an offsetting credit to other
income. Costs in this regard, which approximated $6,420 and $7,405 during the fiscal years ended
September 30, 2012 and 2011, respectively, were determined by OPM utilizing cost factors used to
estimate the cost of providing post-retirement benefits to current employees. However, because of
the offsetting credit, which is reflected as other income on the Statements of Operations and
Cumulative Results of Operations, the recording of these costs has no impact on reported net income
or cash flows.

Future post-retirement health care and life insurance benefit costs are not reflected as a liability on
FPI’s financial statements, as such costs are expected to be funded in future periods by OPM.
                                                  -35-
                                    Fiscal Years 2012 and 2011
                                   Notes to Financial Statements
                                      (Dollars in Thousands)


Note 9. Sales and Marketing, General and Administrative Expenses

Sales and marketing, general and administrative expenses consist of the following:

Sales and marketing, general and administrative expenses
Fiscal years ended September 30,                                      2012                    2011

Salaries, wages and benefits                                       $ 42,986               $ 46,491
Permanent change of station expense                                   1,657                  1,350
Purchases of minor equipment                                            172                    307
Contract services                                                     9,270                  9,787
Bad debt expense                                                        564                   (66)
Credit card service fees                                                970                    897
Travel                                                                1,487                  1,721
Personal computer expense                                             1,458                  2,290
Accident compensation                                                 4,660                  2,409
Financial audit                                                       1,257                  1,690
Marketing                                                             1,550                  1,793
Depreciation                                                          2,122                  2,056
Net loss on disposition of assets                                     7,516                  4,984
Telecommunication expense                                             2,914                  2,976
Other expense                                                       (4,290)                (2,745)
Imputed pension costs (Note 8)                                        2,423                  3,531
Imputed post-retirement health
    care and life insurance cost (Note 8)                             6,420                  7,405
Imputed operating costs                                              24,718                 25,464

Sales and marketing, general
   and administrative expenses                                    $ 107,854              $ 112,340


Other expense is comprised primarily of inmate wages, maintenance agreements, and distributions to
factory operations. FPI distributes certain General and Administrative expenses that benefit all
locations to the individual factory levels. These charges include computer licenses and fees, civilian
and inmate accident compensation, and check charges. These charges totaled $7.7 million for fiscal
year 2012 and $8.1 million for fiscal year 2011. Contract services consist primarily of consulting
and sales and marketing fees. Salaries, wages and benefits are shown net of the imputed financing
offsetting credit (Note 8). Included in accident compensation for fiscal year 2012 is a $2.5 million
increase in the actuarial FECA estimated liability.




                                                -36-
                                     Fiscal Years 2012 and 2011
                                    Notes to Financial Statements
                                       (Dollars in Thousands)


Note 10. Commitments and Contingencies

Legal Contingencies

FPI is party to various administrative proceedings, legal actions, and claims. The balance sheet
includes an estimated liability for those legal actions where management and the Chief Counsel
consider adverse decisions “probable” and amounts are reasonably estimable. Legal actions where
management and the Chief Council consider adverse decisions reasonably possible and the amounts
are reasonably estimable, should not result in judgments which would have a material, adverse effect
on the organization’s financial statements. Furthermore, there are cases where amounts have not
been accrued or disclosed because the amounts of the potential loss cannot be estimated or the
likelihood of an unfavorable outcome is considered remote.

Lease Commitments

FPI leases certain facilities, machinery, vehicles and office equipment under noncancelable capital
and operating lease agreements that expire over future periods. Many of these lease agreements
provide FPI with the option (after initial lease term) to either purchase the leased item at the then fair
value or to renew the lease for additional periods of time. As of September 30, 2012, future capital
lease payments due and future operating lease commitments total $93 and $39, respectively.

Product Warranty

FPI offers its customers a promise of an “Escape Proof Guarantee” on the products it manufactures.
FPI has analyzed the historical pattern of warranty returns and the adequacy of the warranty returns
and allowances. In this regard, FPI has established an estimate of future warranty returns related to
current period product revenue.

Changes in aggregate product warranty liability
Fiscal years ended September 30,                                          2012                     2011

Balance at the beginning of the period                                    $ 444                   $ 451
Accruals for warranties issued during the period                            349                     353
Settlements made (in cash or in kind) during the period                    (375)                   (360)

Balance at the end of the period                                           $418                   $ 444


Minimum Buy Contracts

FPI has entered into firm purchase commitments for solar panel materials totaling $5,012 to be
delivered in fiscal year 2015.

                                                  -37-
                                  Fiscal Years 2012 and 2011
                                 Notes to Financial Statements
                                    (Dollars in Thousands)


Congressional Limitation on Administrative Expenses

Congress has imposed an annual spending limit on certain administrative expenses relating to FPI’s
central office management. These costs include salaries for management personnel, travel expenses
and supplies. The following is a comparison of actual expenses to the limitation imposed:

Congressional limitation on administrative expenses
Fiscal years ended September 30,                                      2012                   2011

Congressional limitation on expenses                                $ 2,700               $ 2,695

Expenses incurred subject to Congressional limitation               $ 1,760               $ 1,775




                                              -38-
